No. 20-54
IN THE

Supreme Court of the United States

BRIDGE AINA LE ‘a, LLC,

Petitioner
v.

STATE OF HAwall LAND USE COMMISSION,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF FOUR TAKINGS
SCHOLARS IN SUPPORT OF PETITIONER in the above-captioned case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook
12 point for the text, and 10 point for the footnotes, and this brief contains 3,122 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

Dwight H. Merriam

Attorney at Law

80 Latimer Lane

Weatogue, CT 06089
dwightmerriam@gmail.com

Tel: (860) 463-7233

Counsel of Record for Amicus Curiae
